OFFICE OF INSPECTOR GENERAL


AUDIT OF FEED THE FUTURE
ACTIVITIES IN ETHIOPIA
AUDIT REPORT NO. 4-663-13-005-P
MARCH 1, 2013




PRETORIA, SOUTH AFRICA

Office of Inspector General


March 1, 2013

MEMORANDUM

TO:                  USAID/Ethiopia Mission Director, Dennis Weller

FROM:                Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Audit of Feed the Future Activities in Ethiopia
                     (Report No. 4-663-13-005-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included the formal comments in their entirety
(without attachments) in Appendix II.

The report contains five recommendations to help USAID/Ethiopia strengthen its Feed the
Future program. We acknowledge management decisions on all recommendations and final
action on Recommendations 2, 3, 4, and 5. Our evaluation of management comments begins
on page 11.

Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action on
Recommendation 1. Recommendations 2, 3, 4, and 5 are closed upon report issuance.

I want to thank you and your staff for the cooperation and assistance extended to us during the
audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof, X5, 0181
Pretoria, South Africa
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     USAID/Ethiopia Did Not Establish Baselines and Targets ...................................................... 5 


     Structure of Ethiopian Programs Delayed Nutrition Activities ................................................. 7 


     USAID Omitted Antiterrorism Clause From Award ................................................................. 8 


     Grant Recipients Were Not Familiar With Award Provisions .................................................. 9 


Evaluation of Management Comments................................................................................... 11 


Appendix I—Scope and Methodology .................................................................................... 12 


Appendix II—Management Comments ................................................................................... 15 





Abbreviations

The following abbreviations appear in this report:

AMDe            Agribusiness and Market Development
AGP             Agricultural Growth Program
ADS             Automated Directives System
CARE            Cooperative for Assistance and Relief Everywhere
CIAFS           Capacity to Improve Agriculture and Food Security
ENGINE          Empowering New Generations to Improve Nutrition and Economic opportunities
FTF             Feed the Future
GRAD            Graduation with Resilience to Achieve Sustainable Development
PMP             performance management plan
RIG             Regional Inspector General
SUMMARY OF RESULTS

Ethiopia is one of the poorest countries in the world. According to the 2011 Demographic and
Health Survey,1 only 23 percent of the population has electricity, while 88 out of 1,000 children
die before they reach the age of 5. Further, 44 percent of children under 5 suffer from stunted
growth because of malnourishment.

According to USAID/Ethiopia, 10 percent of Ethiopians are food insecure,2 primarily those who
live in areas that are not suitable for farming (shown in the map below in beige and orange). To
address this challenge, donors, including USAID, have provided the country with humanitarian
assistance, including direct food aid. In fiscal years 2011 and 2012, the U.S. Government
provided approximately $531.6 million in humanitarian assistance to Ethiopia.

                                     Food Security in Ethiopia




Source: USAID/Ethiopia, August 10, 2011.


1
  Ethiopia Demographic and Health Survey 2011 (Addis Ababa, Ethiopia, and Calverton, MD: Central
Statistical Agency and ICF International.)
2
  According to the World Health Organization, “The concept of food security is defined as including both
physical and economic access to food that meets people's dietary needs as well as their food
preferences.”



                                                                                                      1
To complement humanitarian assistance, USAID also implements activities as part of the U.S.
Government’s global hunger and food security initiative—Feed the Future (FTF). In Ethiopia the
initiative focuses on agriculturally productive areas on the premise that investments there
produce greater returns than humanitarian aid. These areas are shown in green in the map on
page 1. The overall goals are to increase economic growth (in agricultural production and
income) and to help rural Ethiopia be more resilient when facing food shortages in the future.

The audit selected four programs that USAID/Ethiopia developed to achieve these goals. They
are listed below.

1. 	 ACDI/VOCA’s $49.9 million Agribusiness and Market Development (AMDe) program, which
     complements the Ethiopian Government’s Agricultural Growth Program (AGP), focuses on
     crops such as chickpeas, wheat, and sesame.

2. 	The Capacity to Improve Agriculture and Food Security (CIAFS) program, a $7.5 million
    initiative implemented by Fintrac Inc., supports training, research, and monitoring and
    evaluation.

3. 	The Empowering New Generations to Improve Nutrition and Economic opportunities
    (ENGINE) program, implemented by Save the Children Federation Inc., supports nutrition
    interventions.

4. 	The Graduation with Resilience to Achieve Sustainable Development (GRAD) program,
    implemented by Cooperative for Assistance and Relief Everywhere (CARE) International,
    aims to graduate 50,000 households from Ethiopia’s productive safety net program3 and
    increase each household’s income by $365 per year.

The ENGINE and GRAD programs are $50.9 million and $23.4 million, respectively. CIAFS, the
earliest program, began in February 2011 and is scheduled to end in February 2015. The other
three programs began between May 2011 and December 2011, and they are scheduled to end
between May 2016 and December 2016. As of September 30, 2012, USAID/Ethiopia had
obligated close to $30 million and spent more than $15 million on the four programs.

The Regional Inspector General/Pretoria (RIG/Pretoria) conducted this audit to determine
whether these programs were on track to achieve their goals of increased growth with resiliency
in rural Ethiopia. The audit found that they were showing some positive results, despite
experiencing delays in implementation. However, these results were difficult to quantify because
USAID/Ethiopia had not collected all baselines, which are data that establish a starting point
prior to USAID interventions, nor had it set targets to track how activities perform (page 5).

AMDe. Auditors talked with farmers who were trained through the program and received a new
variety of chickpea seeds. These new seeds were intended to help farmers increase production
and earn higher prices than traditional chickpea varieties grown in Ethiopia. In addition, for fiscal
year 2012, AMDe reported creating 360 jobs in the wheat, maize, sesame, and honey value
chains.4


3
 This program offers food aid and cash payments to beneficiaries in areas chronically short of food.
4
 A value chain includes all activities required to produce a product or service and deliver it to the final
customer. Value chains include activities such as production, marketing, and distribution.



                                                                                                         2
However, the program’s implementation was delayed partly because of what USAID/Ethiopia
described as the poor performance of ACDI/VOCA; the organization submitted reports late,
work plans lacked quality and detail, and it was slow in hiring staff. Ten months after the
program was awarded in May 2011, mission officials sent a letter to ACDI/VOCA detailing their
concerns. Subsequent to the letter, the chief of party of ACDI/VOCA was replaced, the program
became fully staffed, and USAID/Ethiopia approved ACDI/VOCA’s work plan.

AMDe also experienced delays because of the need to negotiate agreements with regional
governments to comply with an Ethiopian law, “70/30,” requiring that no more than 30 percent of
funds be spent on non-program expenses, like administrative costs. The delays related to these
negotiations were commonplace with donor-funded programs throughout Ethiopia and were not
specific to AMDe.

CIAFS. Stakeholders expressed satisfaction with training and research performed by the
program. For example, an official in the Ethiopian Government’s Agriculture Transformation
Agency noted that CIAFS’ analytical studies on contract farming and agriculture input markets
(such as fertilizer and seeds) were useful when making decisions.

ENGINE. Auditors observed some positive results, including demonstration plots displaying new
crop varieties to vulnerable populations. In addition, auditors met with health workers trained by
ENGINE who said the program had helped them reduce and prevent malnutrition.

However, as with AMDe, ENGINE experienced implementation delays due to challenges
negotiating agreements with regional governments because of the 70/30 law. ENGINE was
awarded in September 2011, but project activities did not begin until April 2012.

GRAD. Auditors met with households that received livestock with support from GRAD. The
people in these households expressed hope in increasing their incomes so they could graduate
from Ethiopia’s productive safety net program. However, GRAD also experienced delays
because of the 70/30 law, and the program awarded in December 2011 was launched officially
in June 2012.

USAID/Ethiopia’s FTF team had put into place a framework that aligned with the overall FTF
strategy. Using this framework, the team had begun to build and implement tools designed to
monitor activities.

However, the mission did not collect all baselines or set targets for its FTF program (page 5).
USAID planned to collect baseline data in order to set targets for its impact and program-
specific indicators. At the time of the audit, the population-based survey needed to collect
baseline data for impact indicators was still under procurement,5 and the surveys needed to
collect baseline data for the three programs requiring them (AMDe, GRAD, and ENGINE) were
in process.

USAID policy states that performance monitoring is the process through which USAID
determines whether its activities are on track to achieve their desired goal or goals, and both
baselines and targets are essential when making such determinations. In the absence of
finalized baselines and targets, USAID/Ethiopia was not able to measure the impact of $15
million already spent to achieve increased growth with resiliency in rural Ethiopia.
5
    The grant for the survey was awarded on January 4, 2013.



                                                                                                3
The audit also disclosed the following weaknesses.

	 The structure of Ethiopian programs delayed nutrition (page 7). AGP, implemented by the
   Ministry of Agriculture, does not recognize nutrition as one of its components. Meanwhile,
   the National Nutrition Program, implemented by the Ministry of Health, is not linked directly
   to AGP. This has slowed the implementation of ENGINE’s nutrition activities, which operate
   in the same areas as AGP, because AGP officials have inhibited the implementation of
   some of ENGINE’s activities.

	 USAID omitted the antiterrorism clause from an award (page 8). While three of the four
   awards audited included a section on preventing terrorist financing, USAID did not include
   this section in the AMDe award. This omission could increase the risk that funds may
   inadvertently support people or groups associated with terrorism.

	 Grant recipients were not familiar with award provisions (page 9). Both AMDe grant
   recipients interviewed during the audit did not know about the debarment and suspension
   and antiterrorism provisions contained in their award documents. Though ACDI/VOCA was
   conducting some of the required checks on behalf of the grantees, the risk that USAID funds
   or resources went to people or groups supporting terrorism or were otherwise ineligible to
   receive USAID funding was increased.

To strengthen FTF, the audit recommends that USAID/Ethiopia:

1. 	 Finalize its performance management plan and collect baseline data for population-based
     indicators, as planned (page 7).

2. 	 Implement a plan to increase the coordination of nutrition activities between the Ethiopian
     Government’s AGP and National Nutrition Programs (page 8).

3. 	Modify the task order for the AMDe program to include the clause related to preventing
    terrorist financing (page 9).

4. 	 Instruct ACDI/VOCA, in writing, to include the clause related to preventing terrorist financing
     in its subcontracts (page 9).

5. 	 Remind ACDI/VOCA, in writing, of its responsibility that grant recipients comply with award
     terms (page 10).

Detailed findings appear in the following section. Our evaluation of management comments is
on page 11. Appendix I presents the scope and methodology, and management comments are
included in Appendix II.




                                                                                                  4
AUDIT FINDINGS 

USAID/Ethiopia Did Not Establish
Baselines and Targets
USAID policy sets forth a number of processes and procedures that missions should use to
monitor program performance. These include developing a results framework to depict
development goals and strategies; preparing a performance management plan (PMP) and
establishing performance indicators to measure performance; collecting baseline data to
establish a starting point for project activities; and setting targets to determine whether activities
are on track to achieve their goals. Automated Directives System (ADS) 203.3.9 provides
specific guidance on setting performance baselines and targets.

However, though USAID/Ethiopia first received FTF funding in fiscal year 2010, it had only
partially implemented some of the necessary performance measurement tools as of audit
fieldwork. The mission had developed a results framework, which integrated FTF activities,
humanitarian assistance, and health activities—all contributing toward the goals of increased
growth with resiliency in rural Ethiopia. USAID/Ethiopia also was developing a PMP, which is a
tool to monitor performance and determine whether the mission is on track to achieve specified
goals. The mission director approved the PMP on October 30, 2012. However, while it did
contain a list of indicators, contrary to ADS 203.3.9 it did not establish the baseline data and
targets that are necessary to determine whether activities were performing satisfactorily.

Collecting baselines is the responsibility of USAID/Ethiopia for indicators that are measured
using population-based surveys and for USAID-funded partners for the specific indicators they
report on. Without baseline data, the mission could not establish realistic yet ambitious targets.

Population-Based Baseline Data. USAID/Ethiopia did not collect population-based baseline
data for the four impact indicators included in the PMP: (1) per capita expenditure (as a proxy
for income) of U.S. Government-targeted beneficiaries, (2) prevalence of poverty: percent of
people living on less than $1.25 a day, (3) women’s empowerment in agriculture index, and (4)
prevalence of households with moderate or severe hunger.

Baselines for these indicators are measured using population-based surveys. USAID/Ethiopia
began negotiating a grant with the International Food Policy Research Institute in May 2012 to
conduct these surveys and awarded it in January 2013. The mission anticipated the survey to
be conducted in January and February 2013, but it was delayed. Mission officials said that one
reason for this was that USAID/Ethiopia did not finalize the geographic areas that activities
would target until November 2012, a result of additional funding. Rather than risk collecting
insufficient data, the mission was waiting until those areas had been finalized before negotiating
the contract. This rationale is consistent with background information given by an official from
the Bureau for Food Security in Washington, D.C.

USAID/Ethiopia officials said they anticipated collecting baselines and establishing targets by
June 2013. However, they said the institute provided interim baselines that can be used to set
targets to mitigate the lag in collecting population-based survey data. The figure below shows a
timeline of FTF implementation, covering selected projects and milestones for performance
management.



                                                                                                    5
                                      Timeline for Selected Activities
                            December 2011:
                            USAID/Ethiopia
                         received finalized FTF
                               indicators           June 2013:
    Fiscal year 2010:                             USAID/Ethiopia's
     USAID/Ethiopia                                FTF baselines
    received first FTF                            and targets to be
          funds                                       finalized



                                                                         GRAD
                                                                      ENGINE
                                                                  AMDe
                                                   CIAFS
            2010




                           2011




                                           2012




                                                           2013




                                                                                2014




                                                                                       2015




                                                                                              2016
Source: RIG/Pretoria.

Program Baseline Data. In addition, three of the four selected partners audited—AMDe,
ENGINE, and GRAD—did not collect baselines in a timely manner for the specific indicators on
which they report.

They attributed delays to the need to comply with Ethiopia’s 70/30 law. This law requires
nongovernmental organizations to spend 70 percent of funds on program expenses, with no
more than 30 percent spent on nonprogram costs like administrative expenses. For example,
the Ethiopian Government asked ACDI/VOCA to reclassify a number of activities, such as
trainings and evaluations, as administrative, which disrupted its ratio of program to nonprogram
expenses. Despite ACDI/VOCA’s assertions that the nature of its program was knowledge
transfer and technical assistance, the Ethiopian Government considered training and
evaluations to be administrative expenses and suggested that ACDI/VOCA reorganize its
program to comply with the law.

USAID/Ethiopia officials said delays resulting from the 70/30 law affected many projects funded
by USAID and other donors, and it is already working with other donors and the government to
address this problem.

Another reason for the delay in collecting baselines was that the mission received some
indicators from USAID/Washington’s Bureau for Food Security after many activities had been
awarded. Thus, USAID/Ethiopia officials did not believe it was realistic for them to establish
baselines before, or soon after, implementing activities, as required by ADS 203.3.9. An official
from the Bureau for Food Security agreed with the mission’s approach, noting that the FTF
indicators and collection methods were not finalized until fiscal year 2012 and that additional
programming priorities were added to the original strategy due to an increased focus on
economic resilience. As a result, the geographic focus was fluid during the early stages of these
programs, and collection of baseline data was delayed until the focus was finalized. The official
also noted that outside data sources (e.g., a demographic and health survey) would have taken
place in 2011, and they would have been useful to the data collection.

Because it did not have timely baseline data, USAID/Ethiopia was not able to measure whether
the $15 million it had already spent on FTF activities was effectively increasing growth with



                                                                                                     6
resiliency in rural Ethiopia. Instead, the mission could measure only outputs such as jobs
created and people trained. Further, the initiative relied, in part, on the hypothesis that increased
investments in productive areas of Ethiopia would increase growth and help vulnerable
populations by increasing job opportunities. This was a new approach for USAID, and thus
performance data were essential in determining whether the hypothesis was valid. Therefore, to
improve the mission’s performance management of FTF activities, we make the following
recommendation.

   Recommendation 1. We recommend that USAID/Ethiopia finalize its performance
   management plan and collect baseline data for population-based indicators, as planned.

Structure of Ethiopian Programs
Delayed Nutrition Activities
A pillar of both FTF and USAID/Ethiopia’s development objective is to improve the nutritional
status of women and young children. According to the FTF guide, issued in May 2010, the
program seeks to prevent and treat undernutrition by:

       Working with partner countries to raise the importance of nutrition on the national
       agenda; encouraging them to implement evidence-based interventions at a
       national scale to reach the most vulnerable (including women, adolescent girls,
       and young children); and using data to make sound decisions about our program
       investments to reduce undernutrition.

As illustrated in its results framework, USAID/Ethiopia’s nutrition activities, including those
implemented as part of ENGINE, are expected to increase growth with resiliency by
strengthening nutrition services, improving nutrition-related behavior, and increasing access to
nutritious food.

The ENGINE program supports these goals by strengthening national nutrition programs and
policies, training extension workers on health care and nutrition matters, and providing livestock
and seeds to vulnerable populations to improve their nutritional status. ENGINE operates
primarily in woredas (Ethiopian administrative districts) implementing the Ethiopian
Government’s AGP. To improve the nutritional status of vulnerable populations, ENGINE should
work closely with health workers in the Ethiopian Ministry of Health and AGP officials and
agriculture extension workers in the Ministry of Agriculture.

However, some officials inhibited implementation of the nutrition activities. For example, in its
March 2012 semiannual performance report, ENGINE reported that a federal AGP official was
not allowing it to participate in AGP activities. Furthermore, ENGINE was not participating in the
food security steering committee that is the main forum at the national, regional, and district
levels; and AGP did not promote the importance of diversified foods such as fruits and
vegetables.

In addition, vulnerable populations that ENGINE targeted had difficulty obtaining microfinance
loans in AGP woredas because finance institutions were not used to dealing with these
populations and instead are used to working with the productive agriculture sectors. In contrast,
the audit found that vulnerable populations that GRAD supported in non-AGP woredas were
accessing financial services.




                                                                                                   7
ENGINE faced these problems because AGP (run by the Ministry of Agriculture) does not feel it
has the authority to take the lead on nutrition matters since the National Nutrition Program is
under the Ministry of Health. The audit team met with a regional AGP official who said the
program did not explicitly include nutrition activities in its initial design. Further, an official from
the Ethiopian Government’s Agricultural Transformation Agency said nutrition has not been
embraced by AGP and that many AGP officials are not aware that nutrition activities were taking
place in their woredas. This official said nutrition would not be addressed unless it is added to
AGP’s strategy.

Because AGP has not embraced nutrition, USAID/Ethiopia is at risk that its nutritional activities
may not achieve their goals. To strengthen the mission’s nutrition activities, the audit makes the
following recommendation.

   Recommendation 2. We recommend that USAID/Ethiopia implement a plan to increase
   the coordination of nutrition activities between the Ethiopian Government’s Agricultural
   Growth and National Nutrition Programs.

USAID Omitted Antiterrorism
Clause From Award
According to the National Consortium for the Study of Terrorism and Responses to Terrorism’s
Global Terrorism Database, Ethiopia has suffered 133 terrorist incidents since 2007. While
unknown groups committed many of the attacks, some were perpetrated by international
terrorist organizations like the Al-Qaeda-affiliated Al-Shabaab.

U.S. law prohibits transacting with terrorists. To ensure that USAID funds do not reach terrorist
organizations, assistance agreements must contain the following section on preventing terrorist
financing, which was revised in June 2012:

       The recipient must not engage in transactions with, or provide resources or
       support to, individuals and organizations associated with terrorism. In
       addition, the recipient must verify that no support or resources are provided to
       individuals or entities that appear on the Specially Designated Nationals and
       Blocked Persons List maintained by the U.S. Treasury . . . or the United
       Nations Security designation list.

This provision must be included in all subagreements, including contracts and subawards,
issued under this award. Likewise, all USAID-funded contracts must include Federal
Acquisition Regulation 52.225-13, Restrictions on Certain Foreign Purchases, which reads
similarly.

Further, in response to a previous OIG audit (Report No. 4-663-10-003-P, issued on March 30,
2010), which found that this clause was missing from a number of subawards, USAID/Ethiopia
recognized the mandatory nature of the antiterrorism clause and said that it would be included
in new awards.

Three of the four programs audited included these clauses in their award document. However,
USAID did not include it in the AMDe award, which was a task order under an indefinite quantity
contract with ACDI/VOCA. While AMDe was managed by USAID/Ethiopia, the indefinite
quantity contract was managed by USAID’s East Africa regional contracting office in Kenya. In


                                                                                                      8
an apparent oversight, that office omitted the antiterrorism clause from the contract, and as a
result, the clause was not included in the AMDe task order. The audit attempted to discern the
cause of this oversight, but current regional contracting officials had not signed the original
indefinite quantity contract and were not sure why the clause was omitted. The antiterrorism
clause was omitted also from the subcontracts between ACDI/VOCA and its six subcontractors
since the subcontracts referred to the indefinite quantity contract for clauses.

Contract provisions like the antiterrorism clause heighten public awareness of people and
groups linked to terrorism and promote due diligence by private sector entities to avoid
associations with terrorists. Omitting this clause increases the risk that funds may inadvertently
support groups or people associated with terrorism.

To reinforce the U.S. Government’s policy on terrorism, the audit makes the following
recommendations.

   Recommendation 3. We recommend that USAID/Ethiopia modify the task order for the
   Agribusiness and Market Development program to include the clause related to
   preventing terrorist financing.

   Recommendation 4. We recommend that USAID/Ethiopia instruct ACDI/VOCA, in
   writing, to include the clause related to preventing terrorist financing in its subcontracts.

Grant Recipients Were Not Familiar
With Award Provisions
According to “Awarding Fixed Obligation Grants to Non-Governmental Organizations” (an
additional help document for ADS 303), fixed obligation grants are appropriate when awarding
funds to a non-U.S. organization with limited experience in managing U.S. Government grants,
since the mechanism allows nascent organizations to improve their ability while being less risky
for the U.S. Government. This is because payments are based on meeting verifiable milestones,
like submitting a business plan, which requires less financial and management capacity from the
recipient than a contract or agreement.

Accordingly, the AMDe program has a grants component, intended to support investments in
technology and to introduce effective business and management practices. The potential
recipients of the grants included cooperative unions, women’s groups, and research institutions.
As of September 30, 2012, the program planned to invest $6.9 million in the grants component.

In agreement with USAID policy, the AMDe grants manual states that award documents should
include the Agency’s standard provisions. These include the debarment and suspension
provision that states that a recipient must not conduct business with any individual or entity
listed on the excluded parties list—a list of entities and individuals that the U.S. Government has
identified as untrustworthy with taxpayer funds—unless they get prior approval from USAID.

Furthermore, similar to the antiterrorism clause discussed above, a provision should be included
stating that a recipient must not engage in transactions with, or provide resources or support to,
individuals and organizations associated with terrorism.

The audit reviewed two fixed obligation grants that AMDe made to the Becho-Woliso and Lume
Adama farmers’ cooperative unions and found that the documents contained clauses on



                                                                                                   9
suspension and debarment and terrorist financing. However, representatives from these two
unions were not familiar with the procedures required to comply with either of these clauses.

An ACDI/VOCA official said the unions were not well versed in U.S. regulations and that some
grantees do not have the Internet connections required to perform the suspension and
debarment and antiterrorism checks.

Although ACDI/VOCA was performing some of the required checks on behalf of the grantees,
the risk that USAID funds or resources could go to excluded parties or individuals or entities
supporting terrorism increases when recipients do not fully understand the terms of their
awards. For example, the Lume Adama cooperative union purchased chickpea seeds, which
they passed to woreda officials to give to beneficiaries. The officials selected the beneficiaries,
and the cooperative did not know who got the seeds.

Additionally, by having ACDI/VOCA employees conduct the required checks, AMDe missed an
opportunity to improve the capacity of the recipient—one of the goals of the grants program.

To improve AMDe's monitoring of fixed obligation grants and reduce the risk that USAID funds
could go to excluded parties or individuals or entities supporting terrorism, we make the
following recommendation.

   Recommendation 5: We recommend that USAID/Ethiopia remind ACDI/VOCA, in
   writing, of its responsibility that grant recipients comply with award terms.




                                                                                                10
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Ethiopia agreed with the audit findings, and
management decisions have been reached on all recommendations. Final action has been
taken on Recommendations 2, 3, 4, and 5. Our detailed evaluation of management comments
follows.

Recommendation 1. USAID/Ethiopia finalized the performance management plan covering
FTF activities and took steps to begin collecting baseline data for population-based indicators.
These surveys are expected to be completed by September 30, 2013. Therefore, we
acknowledge that a management decision has been reached on Recommendation 1.

Recommendation 2. On November 16, 2012, USAID/Ethiopia signed a memorandum of
understanding with the Ministry of Agriculture to collaborate on the integration of nutrition into
AGP and ensure integration of ENGINE into existing Ministry of Agriculture programs. Based on
management’s comments and the supporting documentation provided, we acknowledge that a
management decision has been reached and final action taken on Recommendation 2.

Recommendation 3. On December 20, 2012, USAID/Ethiopia amended the AMDe task order
to include Federal Acquisition Regulation 52.225-13. Based on management’s comments and
the supporting documentation provided, we acknowledge that a management decision has been
reached and final action taken on Recommendation 3.

Recommendation 4. On December 20, 2012, USAID/Ethiopia amended the AMDe task order
to include Federal Acquisition Regulation 52.225-13. This modification also instructed
ACDI/VOCA to include the clause in its subcontracts. Based on management’s comments and
the supporting documentation provided, we acknowledge that a management decision has been
reached and final action taken on Recommendation 4.

Recommendation 5. USAID/Ethiopia notified ACDI/VOCA of its responsibility to be certain that
grant recipients comply with award terms on December 7, 2012, and ACDI/VOCA agreed to
change its post-award orientation procedures accordingly. Based on management’s comments
and supporting documentation provided, we acknowledge that a management decision has
been reached and final action taken on Recommendation 5.




                                                                                               11
                                                                                      Appendix I



SCOPE AND METHODOLOGY

Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of this audit was to determine whether selected FTF activities in Ethiopia were
on track to achieve increased growth and resiliency in rural Ethiopia. Audit fieldwork took
place from October 4 to October 25, 2012.

In planning the audit, we selected four programs that USAID/Ethiopia accurately represented
its FTF activities. The selected programs comprised 46 percent of the mission’s total FTF
obligations and 40 percent of its total FTF expenditures as of September 30, 2012.

              Selected USAID/Ethiopia Feed the Future Programs (Unaudited)
                                       Total        Amount Obligated        Expenditures as
      Program          Partner       Estimated     as of September 30,      of September 30,
                                      Cost ($)           2012 ($)               2012 ($)
      AMDe        ACDI/VOCA           49,885,436               8,672,463            6,057,345
      CIAFS        Fintrac Inc.        7,500,000               4,500,000            2,399,917
                   Save the
      ENGINE       Children           50,891,422               9,621,172            3,765,157
                   Federation Inc.
                   CARE
      GRAD                            23,400,000               6,675,009            3,015,865
                   International
      Total for Selected Projects    131,676,858              29,468,644           15,238,284
                             †
      Total FTF Activities                                    64,592,086           38,361,235
      Audit Coverage (%)                                              46                   40
  †
   This includes all activities managed by USAID/Ethiopia’s FTF team and considered part of the
  FTF portfolio. Some of these activities receive funding from non-FTF sources.

To establish criteria for the audit, we considered the following documents, among others:

	 The Government Accountability Office’s Standards for Internal Control in the Federal
   Government

	 ADS Chapters 201, “Planning”; 202, “Achieving”; 203, “Assessing and Learning”; 204,
   “Environmental Procedures”; 302, “USAID Direct Contracting”; 303, “Grants and
   Cooperative Agreements to Non-Governmental Organizations”; 320, “Branding and
   Marking”; and 502, “The USAID Records Management Program”

	 Ethiopia Feed the Future FY [Fiscal Year] 2011-2015 Multi-Year Strategy

	 Feed the Future Indicator Handbook, April 2012

	 Feed the Future Guide, May 2010


                                                                                                  12
                                                                                         Appendix I


To identify relevant risks, we reviewed RIG/Pretoria’s most recent audit report on USAID’s
agricultural activities in Ethiopia.6 Based on this review, we added procedures to ensure that
current awards contained the terrorism clause. We also reviewed several reports and
articles7 to identify any findings that could be relevant to the audit. Because one article
raised concerns about Ethiopian Government-sponsored agriculture programs funded by
international donors, we discussed them with mission officials. They said these concerns
had been addressed by a donor group, and no evidence had been found concerning USAID-
implemented activities. As a result, additional audit procedures were not performed.

In planning the audit, we assessed internal controls related to planning activities, the award
process, the ongoing management and monitoring of activities, and reporting and evaluating
results. We reviewed the following:

	 Results of USAID/Ethiopia’s Fiscal Year 2012 Assessment for the Federal Managers’
   Financial Integrity Act of 19828

	 USAID/Ethiopia’s Country Development Cooperative Strategy Fiscal Year 2011–2015

	 Selected cooperative agreements, contracts, task orders, and modifications

	 Implementing partners’ work plans for selected programs

	 Implementing partners’ quarterly performance reports for selected programs

	 Implementing partners’ PMPs for selected programs

	 Qualifications for selected contracting officer’s representatives and agreement officer’s
   representatives

In performing the audit, we interviewed key USAID/Ethiopia FTF team personnel and
support staff—including personnel from USAID/Ethiopia’s program, financial management,
democracy and governance, and contracting offices. We also met with implementing
partners Save the Children Federation Inc., CARE International, ACDI/VOCA, and Fintrac
Inc. In Addis Ababa, we met with officials from the Agriculture Transformation Agency and
staff from Management Systems International.9 We conducted site visits in four districts
(Woliso, Dodola, Lume, and Arsi Negelle) in the states of Oromia and Southern Nations,
Nationalities, and Peoples Region, where we met with regional and woreda staff from the
Ministry of Agriculture, health extension workers, and beneficiaries, and visited homesteads.




6
  “Audit of USAID/Ethiopia’s Agricultural Sector Productivity Activities,” Report No. 4-663-10-003-P, 

March 30, 2010. 

7
  Human Rights Watch, “Waiting Here for Death: Forced Displacement and Villagization in Ethiopia’s

Gambella Region,” January 2012 and “Development without Freedom: How Aid Underwrites

Repression in Ethiopia,” October 2010; Maria McFarland Sanchez-Moreno and Naomi Roht-Arriaza,

“Deadly Aid,” Foreign Policy, August 2012.

8
  Public Law 97-255 codified in 31 U.S. Code 3512.

9
  Management Systems International is a U.S.-based implementing partner that focuses on technical

assistance. USAID/Ethiopia hired it to help monitor performance within the FTF portfolio. 




                                                                                                  13
                                                                                      Appendix I


Methodology
To answer the audit objective, we met with officials from USAID, selected partners, and
Ethiopian officials to gain an understanding of the FTF program, its intended beneficiaries,
and the status of implementation. We supplemented these interviews by reviewing program
documentation to determine whether USAID/Ethiopia’s FTF framework and activities were in
accordance with the overall FTF objectives and goals. We also reviewed program
documentation to determine whether there was an adequate framework to measure
progress toward achieving those goals.

We conducted site visits to confirm the existence of project activities, interview beneficiaries,
and assess crosscutting areas such as compliance with environmental regulations and
inclusion of gender considerations. These sites were selected using project locations
provided by USAID/Ethiopia. Based on this information, we selected areas to visit that had
project activities in close proximity. Given the logistical difficulties in Ethiopia, this was the
most efficient approach for visiting a cross section of activities. Because these projects were
in their early stages of implementation, there were few reported results to date, and data
validation was not necessary to answer our audit objective. Further, as noted above, use of
reported results in answering the audit objective was not possible because the mission had
not established baselines and targets; thus, the reported results were not useful in
performance monitoring. Accordingly, a statistical sample was not necessary in site
selection, and the results could not be projected to the population. Nevertheless, we believe
evidence gathered during fieldwork provided a reasonable basis for our findings and
conclusions.

CIAFS. Because CIAFS primarily focuses on policy advocacy, monitoring, and evaluation,
we did not conduct any site visits for it.

AMDe. To verify that intended individuals benefited from seeds procured with USAID funds,
we visited three farmers’ cooperative unions supported by the program (Becho Woliso,
Sidama Elto, and Lume Adama) to interview the general managers. We specifically inquired
about beneficiary selection criteria, the ongoing monitoring of the use of seeds given to
farmers, and the marketing of their products. We also visited two farmers’ training centers,
also used as demonstration plots (Abiyejiru Farmer Training Center and Multi-Nutrient
Fertilizer Demonstration).

ENGINE. We visited the homesteads of two farmers who received USAID-funded seeds. We
interviewed the farmers to verify that they received a variety of seeds from ENGINE and
planted them for home consumption. We also visited a cooking demonstration site where we
saw health extension workers educate attendees on food variety and preparation. Lastly, we
visited a local school and interviewed the principal to obtain an understanding of the use of
the school garden for nutrition purposes.

GRAD. To ensure that microfinance loans negotiated under the GRAD program were used
properly, we met with GRAD beneficiaries during a site visit at Arsi Negelle and Gubeta Arjo
kebeles (villages). Thirty-four of 60 beneficiaries were present, and we interviewed 8 of
them. We also met with beneficiaries and saw the sheep and goats that they had procured
with loans. Additionally, we interviewed officials from Catholic Relief Services (a subawardee
of CARE) regarding beneficiary selection criteria and monitoring how beneficiaries used the
loans.




                                                                                               14
                                                                                        Appendix II



MANAGEMENT COMMENTS 



                                                                    February 22, 2013


Regional Inspector General/Pretoria
USAID
Pretoria, South Africa

Re: Audit of USAID/Ethiopia’s Feed the Future Activities

Dear Sir or Madam:

This memorandum constitutes USAID/Ethiopia’s response to the draft audit report submitted by
your office on January 18, 2013.

In reviewing the report, we are in agreement with much of what the auditors have found. In
addition to responding to the recommendations with our plan for rectification, we have included
the steps already taken to address the recommendations in the report.

We would like to express our gratitude for the professionalism of your audit team while they
were in Ethiopia and during the conduct of the audit. Their inclusive and collaborative approach
proved to be an effective measure to ensure our responsiveness to the outlined recommendations.

If there are any additional outstanding issues that need to be addressed, or if we have not fully
responded to the set of recommendations, please let us know and we will respond in greater
detail.




                                                                         /s/




U.S. Agency for International Development
Entoto Road                                 Tel: (251)-111-306002
P.O. Box 1014                               Fax: (251)-111-242438
                                            www.usaid.gov
                                                                                                    15
Addis Ababa
                                                                                     Appendix II


Mission Responses to Specific Recommendations:

The purpose of this response is to outline for the Regional Inspector General’s Office the steps
USAID/Ethiopia plans to take or has already taken to address the recommendations contained in
the Draft Feed the Future Audit Report. Several of the audit recommendations have already been
addressed or have ongoing plans to meet the recommendation.

Recommendation No. 1: We recommend that USAID/Ethiopia finalize its performance
management plan and collect baseline data for population-based indicators, as planned.
      	 The Mission now has an approved performance management plan for Development
         Objective One, which covers all Feed the Future (FTF) activities. The PMP was
         finalized and approved by the Mission Director on October 30, 2012 (Attachment 1).
      	 All projects which implemented activities during FY 2012, including AMDe, GRAD,
         ENGINE and CIAFS, reported targets for FY 2013, FY 2014 and FY 2015 through
         the Feed the Future Monitoring System (FTFMS) on November 30, 2012.
      	 The grant agreement to collect all FTF baseline, midline and endline data for
         population-based survey (PBS) indicators was awarded to IFPRI on January 4, 2013.
      	 IFPRI provided interim baselines for all PBS indicators for 2010/11 on January 18,
         2013 and has begun collection of baseline data. The interim baseline was submitted in
         FTFMS on January 31, 2013.
       AMDe completed its project-level baseline in October 2012. 

       GRAD will complete its baseline in early 2013.

       The ENGINE baseline is using a “step-wedge” approach, which conducts a baseline 

         survey for each woreda (district) before implementation begins. Baselines for 13
         woredas in which implementation has begun are completed and 42 more will be
         completed by March 2013. The baseline surveys will continue until September 2013,
         when implementation will be effective in all 100 targeted woredas.

Recommendation No. 2: We recommend that USAID/Ethiopia develop and implement a plan to
advocate for the addition of nutrition activities to the Ethiopian Government’s Agricultural
Growth Program.
      	 ENGINE signed a Memorandum of Understanding (MOU) with the Government of
           Ethiopia (GoE) Ministry of Agriculture (MoA) on November 16, 2012 to collaborate
           on the integration of nutrition into the Agricultural Growth Program (AGP) and
           ensure the effective implementation and integration of ENGINE into the existing
           structures and programs of the MoA (Attachment 2).

Recommendation No. 3: We recommend that USAID/Ethiopia modify the task order for the
Agribusiness and Market Development program to include the clause related to Executive Order
13224 on Terrorism Financing.
       	 The AMDe task order was modified on December 20, 2012 to include the clause
          related to Executive Order 13224 on Terrorism Financing (Attachment 3).

Recommendation No. 4: We recommend that USAID/Ethiopia instruct ACDI/VOCA, in writing,
to include the clause related to Executive Order 13224 on Terrorism Financing in its
subcontracts.


                                                                                              16
                                                                                     Appendix II


       	 The Mission notified ACDI/VOCA, in writing, of this audit recommendation to
          include the Terrorism Financing clause in all of its subcontracts, on December 7,
          2012. ACDI/VOCA acknowledged receipt of the recommendation on December 13,
          2012 and indicated that they changed their post-award orientation procedures to
          comply with this recommendation. In addition, ACDI/VOCA was notified to include
          the clause in its subcontracts through the task order modification made on December
          20, 2012 (Attachment 3).
       	 For future awards, the Mission will ensure that prime awardees are aware of their
          responsibility to include all provisions in the prime award in all sub-awards. OAA
          will make sure that this information is spelled out in the post-award meeting with the
          prime awardees. This information has been included in recent post-award meetings
          and going forward will be part of the documentation noted in the negotiation
          memorandum for all new awards.

Recommendation No. 5: We recommend that USAID/Ethiopia remind ACDI/VOCA, in writing,
of its responsibility to ensure that grant recipients comply with award terms.
         	 The Mission notified ACDI/VOCA, in writing, of this audit recommendation to
            ensure that grant recipients comply with award terms, on December 7, 2012.
            ACDI/VOCA acknowledged receipt of the recommendation on December 13, 2012
            and indicated that they changed their post-award orientation procedures to comply
            with this recommendation.


Attachments:

1.	 Approval for the Performance Management Plan (PMP) for Development Objective #1 (DO 1)
2.	 MOU between ENGINE and the Ministry of Agriculture (MOA)
3.	 Modification to the AMDe Task Order




                                                                                              17
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
